                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A13010006                                                                      Page 1 of 1



                 We assessed an allegation of inaccurate information about external appointments in the
              1
         PI's biographical sketches on awarded NSF proposals? We contacted the PI, who provided a
         chronology of his leave of absence from his grantee institution, and asserted that he was unaware
         that external appointments (in this case, at a foreign university) should be listed on the
         biographical sketch. The PI has accepted full-time employment at the foreign university.
         Additionally the grantee notified an NSF program officer ofthe change in employment of the PI,
         although this is noted only in the annual and final report and not in separate documentation
         within electronic award file. We conclude that the inaccuracies, which date back several years,
         do not support further investigation of this allegation.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11102)
